<html>
<title> - EXAMINING THE U.S. ARMY CORPS OF ENGINEERS</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]


               EXAMINING THE U.S. ARMY CORPS OF ENGINEERS

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                 THE INTERIOR, ENERGY, AND ENVIRONMENT

                                 OF THE

                         COMMITTEE ON OVERSIGHT
                         AND GOVERNMENT REFORM
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             MARCH 6, 2018

                               __________

                           Serial No. 115-71

                               __________

Printed for the use of the Committee on Oversight and Government Reform


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]



         Available via the World Wide Web: http://www.fdsys.gov
                       http://oversight.house.gov
             
             
                                __________
                                

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
30-940 PDF                  WASHINGTON : 2018                     
          
-----------------------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Publishing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, 
U.S. Government Publishing Office. Phone 202-512-1800, or 866-512-1800 (toll-free).
E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="a1c6d1cee1c2d4d2d5c9c4cdd18fc2cecc8f">[email&#160;protected]</a>             
             
             Committee on Oversight and Government Reform

                  Trey Gowdy, South Carolina, Chairman
John J. Duncan, Jr., Tennessee       Elijah E. Cummings, Maryland, 
Darrell E. Issa, California              Ranking Minority Member
Jim Jordan, Ohio                     Carolyn B. Maloney, New York
Mark Sanford, South Carolina         Eleanor Holmes Norton, District of 
Justin Amash, Michigan                   Columbia
Paul A. Gosar, Arizona               Wm. Lacy Clay, Missouri
Scott DesJarlais, Tennessee          Stephen F. Lynch, Massachusetts
Blake Farenthold, Texas              Jim Cooper, Tennessee
Virginia Foxx, North Carolina        Gerald E. Connolly, Virginia
Thomas Massie, Kentucky              Robin L. Kelly, Illinois
Mark Meadows, North Carolina         Brenda L. Lawrence, Michigan
Ron DeSantis, Florida                Bonnie Watson Coleman, New Jersey
Dennis A. Ross, Florida              Raja Krishnamoorthi, Illinois
Mark Walker, North Carolina          Jamie Raskin, Maryland
Rod Blum, Iowa                       Jimmy Gomez, Maryland
Jody B. Hice, Georgia                Peter Welch, Vermont
Steve Russell, Oklahoma              Matt Cartwright, Pennsylvania
Glenn Grothman, Wisconsin            Mark DeSaulnier, California
Will Hurd, Texas                     Stacey E. Plaskett, Virgin Islands
Gary J. Palmer, Alabama              John P. Sarbanes, Maryland
James Comer, Kentucky
Paul Mitchell, Michigan
Greg Gianforte, Montana

                     Sheria Clarke, Staff Director
                  Robert Borden, Deputy Staff Director
                    William McKenna, General Counsel
                          Becca Brown, Counsel
                         Kiley Bidelman, Clerk
                 David Rapallo, Minority Staff Director
                                 ------                                

          Subcommittee on the Interior, Energy and Environment


                    Blake Farenthold, Texas Chairman
Paul A. Gosar, Arizona, Vice Chair   Stacey E. Plaskett, Virgin Islands
Dennis Ross, Florida                 Jamie Raskin, Maryland
Gary J. Palmer, Alabama              Jimmy Gomez, California
James Comer, Kentucky                (Vacancy)
Greg Gianforte, Montana
                            
                            
                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on March 6, 2018....................................     1

                               WITNESSES

James C. Dalton, SES Director of Civil Works, U.S. Army Corps of 
  Engineers
    Oral Statement...............................................     4
    Written Statement............................................     6
Mr. Sean Strawbridge, Chief Executive Officer, Port of Corpus 
  Christi Authority
    Oral Statement...............................................     9
    Written Statement............................................    11
Ms. Kirsten Mickelsen, Executive Director, Upper Mississippi 
  River Basin Association
    Oral Statement...............................................    18
    Written Statement............................................    21
Mr. Jim Weakley, President, Lake Carriers' Association
    Oral Statement...............................................    27
    Written Statement............................................    29

                                APPENDIX

Statement for the Record of The Honorable John R. Moolenaar, 
  submitted by Chairman Farenthold...............................    56
Letter from the South Florida Water Management District Executive 
  Director, submitted by Mr. DeSantis............................    58
Questions for the Record for Mr. James C. Dalton, submitted by 
  Members of the Committee.......................................    63

 
               EXAMINING THE U.S. ARMY CORPS OF ENGINEERS

                              ----------                              


                         Tuesday, March 6, 2018

                   House of Representatives
         Subcommittee on the Interior, Energy, and 
                                        Environment
               Committee on Oversight and Government Reform
                                                     Washington, DC
    The subcommittee met, pursuant to call, at 10:00 a.m., in 
Room 2154, Rayburn House Office Building, Hon. Blake Farenthold 
[chairman of the subcommittee] presiding.
    Present: Representatives Farenthold, Ross, Palmer, Comer, 
Gianforte, Plaskett, and Raskin.
    Also present: Representatives DeSantis and Mitchell.
    Mr. Farenthold. The Subcommittee on Interior, Energy, and 
Environment will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    We are going to start with my opening statement.
    Good morning. Today the Subcommittee on the Interior, 
Energy, and Environment will examine the U.S. Army Corps of 
Engineers, which plays a critical role in the development and 
execution of engineering projects across the nation. Today we 
will discuss ways in which communications and interactions 
between the Corps, localities, and the public can be improved, 
and project delivery can be streamlined.
    The U.S. Army Corps of Engineers is one of the largest 
engineering agencies in the world. They manage a wide range of 
projects that affect our constituents on a daily basis, from 
dredging to flood protection to construction at our military 
bases. America relies on the Corps' ability to complete 
projects that keep their communities safe and keep vital 
transportation lanes open to grow our economy.
    For example, in the district I represent in Texas, we have 
been working with the Corps of Engineers for three decades on 
the Corpus Christi Ship Channel Improvement Project. This 
project would allow larger ships that can now transit the wider 
and deeper Panama Canal to access the Port of Corpus Christi 
Channel from the Gulf of Mexico, lowering transportation costs 
and making U.S. energy more competitive. While many dredging 
projects facilitate imports from foreign countries, this 
project will result in roughly $7 billion in increased exports 
from U.S.-produced energy products.
    With the recent announcement of the President's budget, we 
received the good news that the Trump Administration proposed 
$4.8 billion for the Corps' civil works budget, which includes 
$13 million in funding for the Corpus Christi Ship Channel 
Expansion Project in Fiscal Year 2019. This was not an easy win 
for our district. Despite having been authorized by Congress 
three times, this project has been continuously delayed by 
bureaucracy and what I believe to be the prior Administration's 
hostility to oil and gas.
    This project is not alone in that manner. The Army Corps of 
Engineers currently has a stunningly large backlog for their 
projects. Approximately $96 billion worth of projects are being 
bogged down in red tape and, quite frankly, Congress' broken 
appropriations process.
    Recent flooding in the Houston area during Hurricane Harvey 
can also be linked to long overdue public works projects that 
the Corps is involved with to update, improve, and add 
reservoirs and levees.
    Corps delays and congressional hurdles to funding are 
costing billions of dollars in lost economic benefits and 
increased cost, and in areas with flood control issues are 
costing lives. In talking to my colleagues here in Congress, it 
seems like almost every member of Congress has a Corps issue. 
In fact, we have quite a few members who do not serve on this 
committee who have asked to participate because they see a 
problem in their district. We expect to see some of them today.
    We need to ensure that the Army Corps of Engineers is doing 
what it can to get these projects done in a timely, cost 
effective, and safe manner.
    I look forward to hearing ideas and suggestions from our 
panel today and am hopeful this committee can help create 
solutions to improve the working relationship between the Corps 
and our localities, our businesses, and the American people.
    With that, I will now recognize the Ranking Member of the 
subcommittee, Ms. Plaskett, from the Virgin Islands for her 
opening statement.
    Ms. Plaskett. Mr. Chairman, thank you for calling this 
important hearing regarding the work of the U.S. Army Corps of 
Engineers.
    I would also like to thank the witnesses from the Army 
Corps and local organizations who will provide valuable 
insights and ideas.
    The Army Corps performs a very important role throughout 
our country, from issuing permits that balance economic 
development and environmental protection to assisting with the 
Federal Government's response to natural disasters. This past 
fall, the 103 American citizens living in my territory, the 
U.S. Virgin Islands, were hit by two devastating hurricanes. 
Today, they are still struggling to recover.
    Unfortunately, the Army Corps was extremely slow in the 
support for this recovery. First, the Army Corps is responsible 
for overseeing the removal of 1 million cubic yards of debris 
from the islands of St. Thomas and St. John. I have heard 
serious concerns from my constituents that the Army Corps acted 
much more slowly than the local Department of Public Works, 
which completed debris removal on St. Croix.
    Second, the Army Corps were staggeringly slow in installing 
the blue tarp roofs on houses that were seriously damaged by 
hurricanes. According to reporting in the St. Croix Source, a 
local paper, weeks after the hurricanes devastated the Virgin 
Islands, the Army Corps had only installed 282 of these 
temporary roofs.
    The U.S. Virgin Islands is, unfortunately, accustomed to 
the slow pace of assistance from agencies such as the Army 
Corps. For seven years, Coral World Ocean Park on St. Thomas 
waited for the Army Corps to conclude the Section 4.404 
permitting process in order for the park to obtain the permit 
it needed to continue with an expansion project that would 
enhance tourism. This delay nearly caused the project to be 
abandoned. Such a setback by Coral World Ocean Park would have 
been truly devastating given that the park is a major tourist 
attraction that employs local Virgin Islanders at a time when 
people are working hard to get back on their feet.
    But let's be clear, and I really want this to be clear: I 
am not questioning the dedication of the hard-working people of 
the Army Corps. I believe that you all are doing what you can 
to serve the American people. What I am questioning is whether 
the Corps is hurting from being significantly understaffed and 
underfunded, and I would like to know what we, not as 
Democrats, not as Republicans, but as members of Congress, can 
do to help.
    Today we need to have an important discussion. We need to 
hear what the Army Corps will do differently in the future to 
address challenges. We especially need to hear from the Army 
Corps what it needs from Congress in order to perform its work 
better for the American people. Through oversight and 
accountability, hearings like these will cause the Army Corps 
to serve the American people with the speed and the 
effectiveness they deserve.
    Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you very much.
    Now I am pleased to introduce our witnesses.
    We have Mr. James Dalton, who is the Director of Civil 
Works for the U.S. Army Corps of Engineers.
    We have my constituent, Mr. Sean Strawbridge, the Chief 
Executive Officer of the Port of Corpus Christi Authority.
    We have Ms. Kirsten Mickelsen, the Executive Director of 
the Upper Mississippi River Basin Association; and Mr. Jim 
Weakley, the President of the Lake Carriers' Association.
    Welcome to you all.
    Pursuant to committee rules, all witnesses will be sworn in 
before they testify. Would you all please stand and raise your 
right hand?
    [Witnesses sworn.]
    Mr. Farenthold. Let the record reflect all the witnesses 
answered in the affirmative.
    You may be seated.
    In order to allow for discussion, we would like you to 
limit your oral testimony to 5 minutes. Your entire written 
statement will be made a part of the record.
    If you will take a look in front of you, you will see you 
have a clock that will count down the time. It has a red light, 
a yellow light, and a green light. It works just like the 
traffic lights. The green light means go, the yellow light 
means hurry up, and the red light means stop.
    Please also remember to press the button to turn on your 
microphone, and the closer you are to the microphone, the 
better we can hear you and the better you will sound.
    So we will start with Mr. Dalton. We will give you the 
first 5 minutes, sir.

                       WITNESS STATEMENTS

               STATEMENT OF JAMES C. DALTON, SES

    Mr. Dalton. Thank you, Mr. Chairman. Mr. Chairman and 
Ranking Member Plaskett and distinguished members of the 
committee, on behalf of the Honorable R.D. James, Assistant 
Secretary of the Army for Civil Works, and General Semonite, 
Chief of Engineers, I would like to thank you for the 
opportunity to testify today.
    Again, I am James Dalton, and I currently serve as the 
Director of Civil Works for the Corps. Previously I served as 
the Chief of Engineering and Construction for the Corps' 
headquarters, and I have also served at the district and 
division levels.
    Since Congress first authorized our navigation mission in 
1824, the Corps has worked hard to develop and implement 
solutions to our nation's water resource challenges. We were 
able to do this because we have a world-class workforce of 
talented and dedicated professionals who are passionate about 
what they do. None of our work is done alone, however, but with 
the full participation and hard work of many others. We 
appreciate the value and depend upon the support of the 
Administration, the Congress, and all of our partners to 
succeed in our mission.
    I am very proud of the work that the Corps accomplishes, 
but I am equally aware that the organization can improve, and I 
have been and remain committed to instituting changes to the 
Corps' delivery process in order to become more efficient and 
effective.
    The Corps faces a multitude of challenges, some old and 
some new. Much of our infrastructure is well beyond its design 
and economic life, yet the requirements have never been 
greater. The demands on the Federal budget continue to grow as 
our infrastructure ages, and we find more and more annual 
appropriations going to O&M at the expense of both 
investigations and construction.
    Today we have $96 billion in construction requirements, 
representing the Federal share on a multitude of projects. We 
have close to 100 ongoing feasibility studies, which, if 
authorized, will simply add to the Federal budget requirement. 
Our feasibility studies are formulated with the assumption of 
efficient funding, and all of them are multi-year projects, yet 
we budget on an annual basis with no assurance that the 
adequate funding will be available from year to year. This 
certainly creates frustration and uncertainty with our non-
Federal sponsors.
    Together we must remove the barriers to develop and improve 
our water resources infrastructure. We must encourage and 
incentivize alternative project delivery, streamline Federal 
procedures for delivering projects, and reduce unnecessary 
Federal oversight to facilitate timely delivery of projects. We 
recognize the Corps' role in the future may be different than 
it has been in the past and that our level of involvement in 
project delivery may vary from project to project.
    The Corps is fully engaged in support of multiple efforts 
aimed at streamlining our regulatory processes. Currently, the 
Corps is addressing topics such as establishing discipline and 
accountability in the environmental and permitting review for 
infrastructure, reviewing the nationwide permitting program to 
identify modifications that will increase the efficiency of 
decision-making, and working with the EPA in reviewing the 2015 
Waters of the U.S. rule. Our goal is simply to simplify the 
process for gaining infrastructure permits.
    The Corps continues to work on policy and administrative 
changes that can improve infrastructure delivery. We are 
flattening the organization by delegating decision-making 
authorities and other responsibilities from the Washington 
level to the division and district levels. We are also 
transitioning to a more risk-informed decision-making 
organization because we often find our technical experts that 
are close to the issues can make the decisions based on their 
experience, knowledge, and competence in an area.
    We are also looking at how best to capture the total value 
of a project and working with most communities that have 
massive plans for their areas. We are also reviewing existing 
authorities that may leverage non-Federal financing such as 
WRDA 1986 Section 203 and Section 204. Section 203 authorizes 
the non-Federal to undertake a feasibility study.
    The Corps simply wants to be part of the solution, not part 
of the problem. We recognize the need to address internal 
policies, regulations and processes, and cultural impediments 
in order to remain relevant in the future. We want to be value-
added to delivering solutions, whatever role we may have in 
that endeavor.
    Thank you, Mr. Chairman and members of the subcommittee. 
This concludes my testimony, and I look forward to answering 
any questions you might have. Thank you.
    [Prepared statement of Mr. Dalton follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. Dalton. We appreciate your 
being here.
    Mr. Strawbridge, you are recognized now for 5 minutes.

                 STATEMENT OF SEAN STRAWBRIDGE

    Mr. Strawbridge. Chairman Farenthold, Ranking Member 
Plaskett, and members of the subcommittee, thank you for the 
honor of appearing before the subcommittee and participating in 
this distinguished panel on such an important topic.
    My name is Sean Strawbridge, and I am testifying before 
this committee in my capacity as the Chief Executive Officer 
for the Port of Corpus Christi Authority. I also bring to you a 
perspective shaped by over 25 years of experience working on 
energy, transportation, and trade-related issues.
    There are 926 seaports in the United States, accounting for 
approximately 26 percent of the national GDP. My port, the Port 
of Corpus Christi, is currently the fourth largest port in the 
United States in total revenue tons, and the largest energy 
export gateway in the nation in market value. It is also a 
national strategic military seaport in support of the American 
war-fighter overseas.
    Recently, the Energy Information Administration accelerated 
its forecast for when the United States would become a net 
exporter of its energy production from 2026 to 2022. The last 
time the United States was a net exporter of its energy 
production was 1953, nearly 70 years ago. The Port of Corpus 
Christi is at the apex of this energy renaissance as the global 
gateway for American energy.
    In describing our experience with the United States Army 
Corps of Engineers, one has to go back 28 years to 1990 when 
Congress mandated the commencement of a feasibility study to 
determine costs and impacts of deepening and widening the 
Corpus Christi Ship Channel from 45 feet to 54 feet. It has 
been a long and at times painstakingly slow and bureaucratic 
process to move this project to fruition.
    The feasibility study was completed in 2003. The OMB 
approval came for the project in 2007. Congress authorized the 
project in WRDA in 2007, and again reauthorized in WRDA 2014, 
and in WIN 2016 there was clarifying guidance language that was 
provided for the Corps to follow.
    During this lengthy approval process, the project costs 
grew enormously. At the time of the initial authorization, the 
Corps' chief report estimated costs of construction at $188 
million. In the 10 years it took to finally execute the project 
partnership agreement with the Corps, that cost estimate had 
ballooned to $327 million.
    The Port of Corpus Christi could be handling more energy 
exports. Our project alone is forecasted to increase exports by 
an estimated $36 billion annually, or one-tenth of the current 
trade deficit with China. Estimated transportation cost savings 
for our customers are in excess of $300 million. We are 
extremely pleased that the President recently recommended the 
project in its Fiscal Year 2019 budget, yet we remain 
understandably concerned about how long it took to reach this 
point and how long it will likely take for the Federal 
Government under the current process to execute their mandated 
scope and cost share for this urgently needed energy 
infrastructure project.
    The Port of Corpus Christi's cost share for this project is 
$102 million, and we are pleased to report we have our cost 
share in the bank ready to go. In fact, we have already funded 
the first construction contract completely and transferred $32 
million of port money to the Corps last September to commence 
construction, yet construction has yet to begin and we continue 
to wait for the Corps to secure that first dredging contract.
    At the current Federal funding levels and Corps' estimated 
timeline for construction, this project could conceivably take 
another decade to complete. Yet, we believe we can execute on 
the project much faster and much more cost effective. If we 
apply the same inflationary formula that increased the project 
cost over the past decade, the estimated project cost could 
conceivably be over $525 million, or more, and continue to 
frustrate America's energy exports.
    I want to emphasize that overall the Port of Corpus Christi 
enjoys an excellent working relationship with the dedicated and 
professional women and men of the Army Corps of Engineers. But 
recognizing their, at times, strained capability to execute on 
projects and the significantly underfunded project 
appropriations there is only one step towards solving some of 
these issues.
    I believe I can speak for most ports in the nation and 
certainly for the Port of Corpus Christi when I share the 
belief that interactions with the Corps of Engineers work best 
when there is alignment on project importance, greater 
transparency and sharing of information between the parties, 
and a willingness to collaborate in the spirit of reaching 
consensus.
    The time for policy and structural changes which expedite 
completion of infrastructure projects across the nation is upon 
us. We have been and continue to be a good partner to the 
Federal Government. Thus, one suggested solution is to grant 
more authority for ports to execute on Corps construction 
projects. Ports are already in the construction and dredging 
business today. We are responsible for dredging from the 
Federally-authorized channels to our docks. We can execute on 
these projects much faster and with less expense if given that 
opportunity. Giving the Corps the ability to delegate its 
authority to states and port authorities to manage certain 
projects is a model already followed by the United States 
Department of Transportation. The Federal Highway 
Administration grants similar authority to states to build 
surface transportation projects.
    In closing, the Port of Corpus Christi takes very seriously 
its role serving as a trustworthy steward of the Corpus Christi 
Ship Channel and the significant economic impact it provides to 
the region, the state, and the nation. And it is in this spirt 
of supporting our highest national interests that I have 
offered this testimony.
    Thank you again for the opportunity to testify in front of 
this subcommittee.
    [Prepared statement of Mr. Strawbridge follows:]
   
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you, Mr. Strawbridge.
    Ms. Mickelsen, you are recognized now for 5 minutes.

                 STATEMENT OF KIRSTEN MICKELSEN

    Ms. Mickelsen. Thank you, and thank you, Chair Farenthold, 
Ranking Member Plaskett, and members of the subcommittee. I 
appreciate today's opportunity to talk with you all about our 
experiences working with the Corps and how we might improve our 
working relationship with the agency.
    My name is Kirsten Mickelsen. I am the Executive Director 
of the Upper Mississippi River Basin Association. We represent 
the five states that border the Upper Mississippi River from 
where the Ohio River confluence comes in, all the way up to the 
Twin Cities and the Illinois River.
    We were formed in 1981 by the governors of those states to 
serve as an advocate, provide a forum for coordination and 
information sharing and collaborating with Federal agencies 
that have responsibilities for managing the river, such as the 
Corps. So our board members are made up of governor-appointed 
liaisons, and we represent Departments of Transportation, 
Agriculture, DNR, Economic Development, and those with water 
quality responsibilities. So, what that allows us to do is to 
take a step back and really think about how we manage a large 
ecosystem like the Upper Mississippi River in an integrated and 
a comprehensive lens and context.
    The Upper Mississippi River, I just want to talk about it 
for a second for those of you who are unfamiliar with it. It is 
a very significant national resource. It generates $584 billion 
annually, supporting only nine sectors, and only two counties 
bordering the river. It is very important to our states for 
transportation, water supply, whether for manufacturing or 
drinking water, fish and wildlife habitat, recreation and 
economic development. Congress recognized this in 1981 by 
declaring the Upper Mississippi River a nationally significant 
ecosystem and a nationally significant navigation system, and 
has remained committed to this.
    The river is highly complex, and it is very challenging to 
manage. There are a lot of uses that depend on it, and if you 
do one management action it could have implications for others. 
So the Corps has really been a strong partner for the states 
and our local partners and how we think about best managing 
that river. And maybe given that we have three districts 
managing the Upper Mississippi River, including St. Paul, Rock 
Island, and St. Louis, and we have five states and a lot of 
local governments and parties that are interested in the river, 
we are almost forced to coordinate and collaborate and discuss. 
And we really appreciate the Corps and the staff of the 
districts that are committed to managing the river in ways that 
support all uses and are supported by collaborative, knowledge-
based solutions, and we look forward to that remaining.
    There are a few reasons why we do this well. One is that we 
have these communication forums with well-defined decision-
making processes that are inclusive of the states and all of 
our stakeholders, and we make a collective effort to share 
information that turns into knowledge and that informs 
decision-making. Through that flow and deliberative dialogue 
and planning, we are able to find solutions that are effective, 
efficient, and sustainable to address water resource 
challenges.
    With specific construction projects, whether they are 
structural or non-structural measures that our states and our 
non-profit partners want to partner on and to advance 
collectively, we find that achieving these shared solutions are 
challenged by constraining budgets and policies.
    I wanted to just pick today--I could talk all day long 
about policies that affect our ways of implementing these 
projects, but I wanted to focus in on the Corps' cost-share 
agreement, project partnership agreements, and the way that 
they are structured. I am sure several of you in the room are 
maybe stakeholders that have alluded to these challenges, but 
they are really structured in a way that protects the Federal 
Government and requires a non-Federal sponsor, whether that is 
the state or a non-profit or a port authority, potentially, to 
assume all liability and to assume O&M in perpetuity.
    Our state attorneys general are unable to execute these 
agreements, constitutions don't allow for it, or tort law, and 
we would like to see that addressed. In the testimony I offer 
language that we are hoping to seek through WRDA. But 
basically, it is a directive that I think the Corps needs to 
realign these agreements.
    What our states are asking for is not to step away from 
liability but to examine any legal challenges in context. So 
that is what this language hopes to do. Again, we hope to seek 
it in WRDA. There is an explanation as to why the language as 
it currently is in the cost-share agreements conflicts with our 
state constitutions and tort law, and I hope you will take a 
look at that.
    Also, to pick on the piece of O&M, these projects are 
designed to be 50 years. The Corps used to have a 50-year term 
limit in the agreement and took that away. So now the states 
and non-profits are, in perpetuity, forever, assigned to take 
care of the O&M as prescribed by the Corps.
    And one other reason that I just want to talk about this 
being problematic is that the Corps has the ultimate decision 
for planning, for materials that are used, for the construction 
and design. They are the only point of contact with the 
constructor, but yet you are asking the non-Federal sponsor to 
assume all liability, regardless of context and only for fault 
and negligence, which is hard to prove.
    So again, we are hoping to get that addressed in WRDA. We 
think that will allow us to partner. We think as the Federal 
Government continues to want to involve non-Federal sponsors on 
these cost-share projects, and we find a way to address this so 
that the cost-share agreements reflect the Corps' attitude to 
really partner on addressing the water resource issues.
    One other thing I just wanted to mention while I was here 
is that our non-profit partners in WRDA 2007 classified them as 
a non-Federal cost-share sponsor, and we think that that 
provides a lot of great opportunities, particularly for 
ecosystem restoration projects. But right now, the Corps does 
not accept gifts that were donated to the non-Federal sponsor, 
like rock or something like that, that maybe a private entity 
would want to donate to the Corps, because they don't account 
for the value of that good. They only account for the cost that 
it was for that agency. We think that would also have maybe 
implications to port authorities or maybe to the states that 
receive donated goods. So we hope that that also is changed so 
that it enables our non-Federal partners to stand forward and 
get the credit that they deserve for bringing resources to the 
table.
    [Prepared statement of Ms. Mickelsen follows:]
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much.
    Mr. Weakley?

                    STATEMENT OF JIM WEAKLEY

    Mr. Weakley. Good morning. I represent 13 American 
companies operating 45 vessels. We employ 1,600 people and move 
100 million tons of cargo, generating 103,000 jobs, with an 
economic impact of $20 billion. I will describe the Great Lakes 
Navigation System and focus my testimony on how a gap in Corps 
policy, combined with flawed assumptions and illogical 
conclusions, risks 11 million jobs.
    The Great Lakes Navigation System, including the Soo Locks 
in Michigan, is a transportation network for iron ore and other 
commodities that enable the manufacturing of steel, 
automobiles, appliances, ships, and other products in the U.S. 
We depend on the Army Corps to maintain this marine highway. 
Without the locks connecting Lake Superior to the lower locks, 
we could not do our job.
    Our decade-plus quest for a valid benefit-to-cost ratio for 
a replacement Soo Lock project has been stymied by the Corps' 
resistance to common sense.
    The cargo, if there was a lock outage, the Corps assumed 
could move by rail. We immediately pointed out that the rail 
connections don't exist and that the Great Lakes steel mills 
can't receive ore by rail. A Department of Homeland Security 
study confirmed this. DHS concluded that a six-month outage of 
a larger lock would cause 11 million Americans to be 
unemployed, more than 800,000 unemployed in each of Michigan, 
Texas, and Ohio. A recession would result.
    It took congressional intervention to force the Corps to 
re-look at their assumptions. The Corps admitted to us that the 
lack of a rail alternative is new to them, and that their 
policies don't say how a BCR should account for this.
    We engaged with the Corps at the beginning and at every 
step of this $2 million, more than 2-year economic 
reevaluation. We included rail, mining, steel, and vessel 
experts, and the Corps' report should be drafted soon. Within 
the past six weeks, however, we learned of two new fatal flaws 
that will reduce the BCR to less than half of what it should 
be.
    According to the Corps economists, a rail transportation 
alternative at the lock would cost between $4 and $10 billion, 
with the Corps' contractor estimate of $6.5 billion. That cost 
should be compared to the cost of building a new lock, but that 
is not what the Corps is doing. They are using an unsuitable 
averaging model to set the cost of the rail alternative at $2 
billion. Averaging makes sense when you can rent capacity from 
an existing railroad, but not when you have to build rail 
infrastructure. That is like building a 900-foot lock instead 
of a 1,200-foot lock because the average size of the vessel is 
smaller than the maximum size of the vessel. If you only paid 
30 percent of the cost of building the railroad capacity in 
need, it doesn't mean that you get to use the needed capacity 
30 percent of the time; it means that you never get to use that 
capacity because 30 percent is not enough to complete the rail 
connection.
    The Corps is also unnecessarily adding part of the cost of 
the rail connection to the cost of building the new lock in the 
BCR calculation.
    Despite our efforts to engage the Corps, we fear that $2 
million of taxpayer funding will again result in a 
significantly flawed BCR that will under-count the project's 
transportation savings. This risks failure of Great Lakes iron 
ore transportation and a substantial portion of our 
manufacturing economy. Eleven million jobs are at risk, not 
because the Corps has to but because they choose to.
    Thank you.
    [Prepared statement of Mr. Weakley follows:]
 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Farenthold. Thank you very much.
    I note the presence of my colleague, the gentleman from 
Florida, Mr. DeSantis, and at this point I would like to ask 
unanimous consent that he be allowed to participate fully in 
this hearing.
    Without objection, so ordered.
    We also have a statement for the record from Mr. Moolenaar. 
We will include that in the record.
    Without objection, so ordered.
    Mr. Farenthold. I usually wait until the end to ask my 
questions, but I am going to go ahead and take the Chairman's 
prerogative and go first, because this is an issue that I have 
been working on since Day 1 here in Congress. I am going to 
start with Mr. Strawbridge.
    You have been working 25 years in transportation logistics 
and trade, and in your testimony you talk about lack of 
transparency, lack of communication, lack of funding as some of 
the challenges. Is that within individual Corps districts, or 
is it more of the Corps as a whole? Can you talk a little bit 
more about the effects of that?
    Mr. Strawbridge. Mr. Chairman, thank you. I guess the short 
answer is it depends. In our particular case, depending upon 
what the issue is, we will have disagreements between our Corps 
district on interpretations, disagreements with their own 
division, and perhaps disagreements with headquarters.
    We had a recent disagreement at the division level. It took 
one email that I wrote to senior counsel at headquarters to 
have it resolved. But the point is, why does the sponsor, why 
does the partner have to navigate all the various silos within 
the Corps to get an answer?
    I think that things can improve. I think we have seen some 
improvement, particularly in a post-Harvey environment. It is 
disappointing to have to see a major catastrophic event kind of 
bring us all together. In a post-Harvey environment, we have 
seen some improvement. But frankly, we are a little battle 
weary. It should not take 28 years for us to get a dredging 
project to the point where it is now. So there is certainly 
room for improvement.
    Mr. Farenthold. So you got a delay widening and deepening 
and dredging project. The Port of Brownsville has some shoaling 
issues that were put out for bid and got zero bids back. Have 
we reached the capacity where we can't do some of these 
projects, Mr. Dalton? Is there a problem with capacity and 
getting these done?
    Mr. Dalton. Thank you, Mr. Chairman. I don't think we have 
reached a problem with capacity here that we can't get things 
done. A lot of it is based on timing, just when we actually 
solicit for these projects. We have a concern also about some 
of the prices that we are getting as compared to our government 
reasonable prices. But when we meet with industry, we don't get 
the impression that they are tapped out.
    Mr. Farenthold. Okay.
    Mr. Dalton. So I think we have the capacity.
    Mr. Farenthold. Mr. Strawbridge, you talked a little bit 
about the non-Federal sponsors taking more control of the 
projects. Ms. Mickelsen talked about the Corps almost entirely 
being in charge, the liability potentially being with the non-
Federal sponsor.
    Mr. Strawbridge, could you tell us a little bit about what 
you think, how we could fix that or some of the concerns 
associated with that and what some of the legal issues are?
    Mr. Strawbridge. Yes, sir, Mr. Chairman. I can't agree more 
with Ms. Mickelsen and her position that the non-Federal 
sponsor is put in a--I think when we talk about these project 
partnership agreements, the term ``partnership'' is one that we 
have to really question, because a lot of the liability and 
responsibility is put on the non-Federal sponsor, including 
funding.
    In our particular case, we do dredging. We dredge between 
the Federal channel and the docks. We believe that we can 
execute on those projects faster and likely cheaper than the 
Army Corps of Engineers, and so we like to advocate that we 
give an opportunity for those construction projects to be able 
to execute on those projects without having a lengthy Section 
404, 408, or Section 10 permitting process, just essentially 
have the Corps delegate its 204 authority to its non-Federal 
sponsor to be able to execute on those projects.
    Mr. Farenthold. Mr. Dalton, can we do that under current 
law, or do we need to do something to--it seems like if you can 
get somebody else to take on some of the workload and you just 
supervise, that sounds like a pretty good idea.
    Mr. Dalton. Yes, Mr. Chairman. So, a couple of responses to 
that.
    One, I agree with Mr. Strawbridge that in some cases, maybe 
in many cases, the non-Federal entity might be able to get a 
project done faster and at lower cost, primarily because, in 
the cases that we have observed, they have gotten funding up 
front. So that means that contractors can commit to a schedule. 
They can control and manage their risk.
    So we are looking at different authorities that we 
currently already have that allow us to do this. As I mentioned 
in my oral statement, WRDA 1986 has the Section 203 authority 
that allows a non-Federal to conduct a feasibility study, and 
Section 204 allows a non-Federal to actually construct a 
project. So we are looking at--in fact, we are exercising those 
authorities. I don't think in the past we have used those 
authorities as much as we perhaps could have.
    The second part of the comment from him and Ms. Mickelsen 
refers to actually something written in law that says that the 
Federal Government is to identify the non-Federal sponsors 
responsible for O&M for that project, and it went from 50 years 
to perpetuity because our projects don't stop at 50 years. They 
are still ongoing. And also there are liability requirements in 
the WRDA.
    I apologize for not having that in front of me to tell you 
exactly which one that is. I can certainly provide that to you 
as a matter of record. But that is a law that we are abiding 
by, in response to that.
    Mr. Farenthold. We do want to get the job done and, of 
course, we frequently do the WRDA bills, so the things that you 
need to be fixed and feel like would be helpful is something 
that we need to know about up here.
    I see my time has expired. I will now recognize Ms. 
Plaskett for 5 minutes--5-and-a-half, since I went over.
    Ms. Plaskett. Thank you.
    I have heard the concerns that you all have raised, as well 
as local concerns that are in the Virgin Islands as well, 
regarding different issues, whether it is stretching the 
permitting process, et cetera.
    One of the ones that stood out and is most recent in the 
Virgin Islands has been the debris removal that was put to the 
Army Corps of Engineers. Major General Ed Jackson, in written 
testimony before the House Committee on Transportation and 
Infrastructure, stated as of October 31st, 2017--this is after 
the hurricane of September 6th--only 141 cubic yards of the 
estimated 1 million cubic yards of debris had been removed.
    Mr. Dalton, can you give some light as to this failure to 
remove almost 90 percent of the debris more than a month, 
almost two months after the hurricane, and why the Army Corps 
was slow in performing this function?
    Mr. Dalton. So, I am not real sure that I can provide you 
all the details of what happened in the past. I know that the 
status as of today is I think 94 percent or so of that debris 
has been removed, collected I should say, and we are in the 
process of looking for disposal methods to ensure we have those 
on the contract. The information I have before me says that 94 
percent of the 870,000 cubic yards of debris have been 
collected. We anticipate a WRDDA renew vegetative 
transportation disposal contract in April to include disposal 
options and criteria.
    Ms. Plaskett. But do you understand, when you say in the 
past, you make it sound like it was two years ago when it was 
actually just a couple of months ago. But I wanted to know--I 
have heard the concern and I wanted to know, do you have any 
reasoning why it was slower in St. Thomas and St. John, where 
the Army Corps was responsible for it, as compared with the 
island of St. Croix, where the local government was 
responsible?
    Mr. Dalton. I would have to look into that and get back 
with you. I don't know at this point.
    Ms. Plaskett. You are unaware of why that is?
    A second one would be during the same hurricane recovery, 
when the Army Corps was put in charge of the installation of 
your blue roof program which installs the temporary tarps over 
homes of hurricane victims. At the time, almost well over a 
month that the hurricane had struck, we had about 14,000 homes 
that were affected. And after almost two months, only 282 of 
the temporary roofs had been installed, recognizing that this 
was still the rainy season, and so individuals' homes were 
still being rained on during this time.
    Can you explain what were the issues that the Army Corps 
had in the slowness of the installation of those?
    Mr. Dalton. One of the reasons, I believe, that we couldn't 
move as fast as we had planned to do is that the blue roof 
design that we had had to be modified because some of the 
houses didn't really have enough structure left to actually 
attach the roof.
    Ms. Plaskett. Got it. So you were used to installing blue 
roofs on homes that had portions of the roof removed, as 
opposed to, in the Virgin Islands after a category 5, the 
entire roof structure was gone.
    Mr. Dalton. That's correct, Congresswoman.
    Ms. Plaskett. And then when you made this assessment that 
this was the problem, how was that information then sent back 
to the Army Corps in real time, and how were they able to make 
modifications and changes? Is there a process for that, a 
formal process for that?
    Mr. Dalton. Well, the formal process in times of disasters 
and emergency recovery are things that we probably do a lot 
more direct than we would following a normal process. The 
normal process for making changes like that would actually 
include a design modification that has to be reviewed and 
approved, et cetera. So there is a lot more bureaucracy there 
than we would normally do in an emergency situation.
    There, the authority was with the folks that were on the 
ground, and the changes were made immediate.
    Ms. Plaskett. So you used your creative engineering 
ingenuity to just make the changes in real time.
    Mr. Dalton. Yes, Congresswoman. What I would say is that we 
are trying to get to a point where we allow professional 
judgment and engineering judgment to govern.
    Ms. Plaskett. And does Congress give you the wherewithal in 
the law to do that?
    Mr. Dalton. We do, yes.
    Ms. Plaskett. Okay, great. Thank you.
    I am also concerned--and I recognize the work, and I saw 
how much the Army Corps was right in the thick of things and 
really being supportive, even in terms of what I mentioned 
earlier, with Coral World and the length of processing of those 
permits.
    Ms. Mickelsen, in your written testimony you voiced concern 
about the Corps' ability to manage your area, the Upper 
Mississippi. Do you think that understaffing and underfunding 
of the Corps is at the root of your concerns?
    Ms. Mickelsen. I certainly think it is an underfunding 
issue. It is also, I think, an issue of getting priorities in 
the budget and getting past cost/benefit as the criteria as 
currently assumed or used in OMB and the Corps, and how that 
differentiates.
    For channel maintenance and our lock infrastructure, we 
have over $1 billion in backlog, and we are not able to take 
care of it. Also for channel maintenance, the Corps is in a 
very reactive position because of funding. They have not been 
able to take care of sediment as it is filling in the river and 
keep the 9-foot navigation channel open and safe and reliable. 
What that does to our states is, when you get a flood to 
drought or a drought to flood or whatever and sediment drops 
quickly, the Corps has been behind, and they classify that as 
an emergency situation.
    Ms. Plaskett. Ms. Mickelsen, you have to quickly--I am well 
past my time.
    Ms. Mickelsen. Oh, I am sorry. Anyway, they are in an 
emergency situation and the states are in-between closing the 
navigation channel for business or streamlining permitting and 
not doing their legal obligations to do that.
    Ms. Plaskett. Thank you. And that shouldn't be counted 
against me. Sorry.
    [Laughter.]
    Mr. Farenthold. All right. We will recognize now the 
gentleman from Kentucky for 5 minutes.
    Mr. Comer. Thank you, Mr. Chairman.
    My first question is for Mr. Dalton. As you know, most of 
our nation's locks and dams are now over 50 years old. 
Unsurprisingly, we are experiencing breakdowns across the 
Inland Waterway System that caused costly and unnecessary wait 
times for barges on these rivers. A prime example of this are 
the recent failures at locks and dams 52 and 53 on the Ohio 
River, which have caused several shutdowns on this busy 
commercial navigation route over the past year.
    Thankfully, this outdated infrastructure will soon be 
replaced by the Olmsted Lock and Dam which is scheduled to open 
later this year after nearly 30 years of delays. My question to 
you is, what lessons has the Corps learned from the Olmsted 
project, and how can we improve the process for pending and 
future projects?
    Mr. Dalton. Thank you, Congressman. I think our biggest 
lesson learned from Olmsted is that funding is a major 
component of that, because if we had funded that project to 
full funding, then we would be able to assign contracts, award 
contractors, hold contractors to a schedule, hold ourselves to 
a schedule rather than piecemeal the project as we did with 
Olmsted.
    Also, a pretty important lesson learned was the way we 
actually constructed Olmsted, and using the modeling that we 
did before to decide to construct is probably something we 
would take a look at for future projects.
    Mr. Comer. Okay. Thank you.
    And for the rest of the witnesses, I would like to hear 
your thoughts about the importance of community involvement and 
input with regard to Corps-managed projects. Do you have any 
specific recommendations on how to improve communication and 
interaction between different stakeholders and the Corps? 
Anyone?
    Ms. Mickelsen. Well, yes. I will give a prime example. In 
Pool 4 at the navigation channel, the Corps has a dredge 
material plan, and I think there are some conflicts with 
lawyers and how to present plans. Basically, just one example 
of an instance, rather than having a community approach around 
dredge material disposal and what to do with that, there was a 
proposal that the Corps wanted to do to do eminent domain to a 
third-generation farmer, and basically the lawyer said that the 
Corps could not consult with or notify that public landowner in 
advance. So they dropped that plan on their doorstep literally, 
as well as their neighbors, and that created an uproar.
    But what it did show also is that our local communities and 
our farmers and all those throughout the whole region are 
removed from the river and why it is managed and how it is 
managed, and we need to have these continual conversations so 
we know why we need to invest and what kind of measures the 
Federal Government needs to do to take care of our navigation 
channel.
    Mr. Comer. Great.
    Anyone else?
    Mr. Strawbridge. Congressman, we at the Port of Corpus 
Christi have to run interference between the community and the 
Corps often, and what happens is we get phone calls where 
applications for Corps permits or adjustments will sit fallow 
for months or even years, and without somebody else to turn to, 
they will turn to the Port Authority to assist them with that, 
and we are happy to do that. Again, we do value the 
relationship that we have with the Corps at the district, the 
division, and HQ. But certainly there is room for improvement 
with the user-friendliness of the Corps with the community.
    Mr. Comer. Yes, sir.
    Mr. Weakley. Congressman, in my written testimony I talk 
about a success story when we dealt with our dredging crisis. 
It took us 10 years, and we spent a lot of time communicating 
at the district, the division, and the headquarters level, but 
we have turned the page on that.
    In the Soo Lock project, we invoked the same process to try 
and engage frequently at multiple levels, and we met 
disappointing results in the same process.
    Mr. Comer. Thank you, Mr. Chairman.
    Mr. Farenthold. Thank you.
    I now recognize the gentleman from Alabama for 5 minutes.
    Mr. Palmer. Thank you, Mr. Chairman.
    Listening to Mr. Strawbridge's testimony about the 
frustration over the length of time to get action on dredging 
the Corpus Christi Channel brings up a number of issues that 
other members, not necessarily this committee, have brought up 
about the lack of action from the Corps.
    You said in your testimony, Mr. Dalton, that there are more 
than 100 feasibility studies underway. Is that correct?
    Mr. Dalton. Yes, that is correct.
    Mr. Palmer. How many of those are over five years old?
    Mr. Dalton. I would have to look and see. The majority of 
those are probably over five years old, without a doubt, 
because if ----
    Mr. Palmer. I would like for you to give us a list of 
feasibility studies and how long they have been underway, if 
you could do that in writing. I would also like to know what 
are you spending on those studies.
    Mr. Dalton. If I could, Mr. Congressman, those studies, we 
characterize those as legacy, a lot of those as legacy studies. 
AS you probably know, a few years ago we revised our process to 
complete feasibility studies within three years and $3 million, 
as opposed to longer. So most of those 100 feasibility studies 
were started long before the 3/3/3 requirement that is now law, 
but we will certainly provide you with a list of those. As to 
how much we are spending on those, I will have to look at that 
and provide it. Today's standard is $3 million for a 
feasibility study.
    Mr. Palmer. Well, my problem with this is that there are 
various reports indicating that taxpayers would save anywhere 
from $3 to $8 for every $1 invested in flood mitigation, for 
example, and similar types of investments. If you are just 
going to study the projects or only going to build small parts 
of it, you are really not helping out there. There is no 
benefit to the taxpayers.
    I will give you an example. There are several examples 
here, but I am going to give you a few examples of where the 
Corps spent tens of millions of dollars and has taken decades 
without actually building anything.
    The Corps spent over $80 million on the Morganza Project in 
Southwest New Orleans and has not yet put a shovel in the 
ground.
    The West Shore Project was in study phase for 42 years--I 
want to emphasize that, Mr. Chairman--42 years, before the 
Corps finally issued a project recommendation that authorized 
construction for 2016. I don't know what they have done as of 
now.
    The impact of the August 2016 flood in Baton Rouge, which 
this committee addressed, could have been significantly reduced 
if the Comite Diversion had been built. That is the canal 
between that river and a deeper, wider channel. That had been 
proposed for 30 years, and it cost the taxpayers billions of 
dollars, and the people who were affected by that flood are 
never going to get over it.
    These are just a few examples. The reality is that our 
nation has approximately 215 disasters that have cost the 
taxpayers over a billion dollars, and that is just since 1980. 
When you include the 2017 hurricanes, it will cost our nation 
nearly $1.5 trillion to pick up the pieces and try to respond 
to these, where a lot of the problems could have been avoided, 
could have been mitigated if the Corps would quit studying and 
start working. How do you respond to that?
    Mr. Dalton. So, Mr. Congressman, that goes really to the 
heart of some of the things that we are trying to change within 
the organization right now.
    First of all, what we did in the past with those 
approximately I will say 100 studies, some of those that you 
are referring to, we can't go back and recover that. What we 
are trying to do is make sure in the future that we don't do 
the same thing and spend that kind of money on studies.
    So what we are doing is we are trying to become a more 
risk--make decisions more based on risk and uncertainty rather 
than try to model everything until we get to a 99 percent 
solution, and we believe that that will certainly help us to 
get studies done faster and for lower cost.
    Mr. Palmer. Let me go back to Mr. Strawbridge and the Port 
of Corpus Christi. The United States is in a position to 
dominate the world in energy. It is absolutely critical that 
our ports be able to handle the shipping that is going to be 
necessary to do that. It is absolutely critical for our 
economy.
    So my suggestion is, for the good of the country and to 
conclude my part of this hearing, is that the Corps implement 
the three-year strategy and that we begin immediately to work. 
I really think it is a good idea to delegate a lot of these 
projects down to the state and local level. I think that we 
will see projects implemented much more expeditiously, and I 
think it will save us a boatload of money, not to use that 
metaphor lightly.
    I thank the Chairman. I yield back.
    Mr. Farenthold. Thank you very much.
    We will now go to the gentleman from Montana, Mr. 
Gianforte.
    Mr. Gianforte. Thank you, Mr. Chairman.
    Director Dalton, thank you for being here today. I 
appreciate the hard work that the Corps does across the country 
managing a large, diverse set of projects, and in some cases, 
like the Houston Shipping Channel, you have done your job to 
get ready for the project, and Congress has not done our job in 
giving you the resources. In other cases you have done your job 
and Congress has given you the money, and other problems come 
up.
    This is the case with the Lower Yellowstone Intake Project 
in my home state of Montana. The Lower Yellowstone Intake 
Project has provided a dependable supply of irrigation water to 
58,000 acres and over 400 family farms in Montana and North 
Dakota for over 100 years. To protect the endangered palette 
sturgeon, Congress funded a bypass channel and improvement to 
let the fish circumvent the intake dam and access 165 miles of 
additional river.
    A Federal District Court has granted an injunction against 
the project, saying it does not do enough for the sturgeon. 
Certainly, doing nothing does nothing for the fish. I 
appreciate the Corps' willingness to continue to pursue the 
project and want to commend your staff in the Omaha district 
for their level of engagement.
    That is what this hearing is about, improving 
communications. I know that several towns in Montana are also 
working with the Corps to update their levee systems, 
particularly the towns of Glasgow and Mile City, and navigating 
the confusing maze of Federal requirements and funding 
opportunities, and they need timely feedback from the Corps.
    What can we do to improve the process to ensure folks that 
are trying to get these permits and projects moved along get 
the necessary feedback they need in a timely way from the 
Corps?
    Mr. Dalton. Thank you, Mr. Congressman. So, we are 
committed to trying to communicate better with our public so 
that, in fact, they do have information faster than what we 
have done in the past. We are looking at different ways to 
communicate, perhaps using more social media just for general 
public information. But certainly for those that are working on 
projects that need our input, we are glad to step up and help 
them as much as possible.
    I commend Mr. Strawbridge. He said that he didn't really 
think it was necessary to go straight to the headquarters to 
get a solution. But oftentimes what happens, until we are able 
to change the culture from what we have, we don't know that 
problems exist. We don't know that people are not getting 
feedback that they need until they tell us.
    So we would prefer to find out sooner rather than later. 
Certainly we would say to you and your constituencies that if 
there is a problem with lack of feedback, we would like to know 
about that.
    Mr. Gianforte. Okay, good. And just to follow on a question 
that the Chairman asked about this Section 203 and 204 
delegation authority that you have to allow you to use private-
sector firms to do either feasibility or construction, you 
mentioned that maybe you haven't used it quite as much as you 
could have.
    When can you use it? Is it applicable--is it your 
understanding that Congress has given you the authority to use 
Section 203 and 204 for all potential Corps projects?
    Mr. Dalton. Yes, sir. I am not aware of any restrictions 
that would say we cannot use it on certain types of projects. 
It is just one of the things that we are looking at now, trying 
to use non-Federal entities to carry out some of the work that 
the Chairman mentioned that could take place that we started 
looking at this.
    So we have a handful of 203 studies that the non-Federals 
have taken on, as well as some 204s.
    Mr. Gianforte. And we have talked about the backlog of 
feasibility projects that have kind of gone on for decades. 
What criteria should the Corps be using to determine when to 
use private-sector firms? Because by your own testimony, you 
said that using this Section 203 and 204 would lower the cost 
for taxpayers and allow us to get projects done faster. That 
seems like something we all should be working towards. When 
should you be using 203 and 204?
    Mr. Dalton. What we wait for is a non-Federal to actually 
request or say that they have an interest in taking on a 
project like that. So the complexity associated with it is 
still the environmental requirements, because a 203 is provided 
to our Assistant Secretary for Civil Works, and if a decision 
is made to move forward with that project, now it becomes a 
Federal action.
    Mr. Gianforte. So I understand that if there is a private-
sector entity willing to take on that delegation from the 
Corps, you are game.
    Mr. Dalton. For a feasibility study and construction.
    Mr. Gianforte. Thank you.
    Mr. Chairman, I yield back.
    Mr. Farenthold. Thank you very much.
    We will now recognize the gentleman from Florida, Mr. Ross.
    Mr. Ross. Thank you, Chairman; and I thank the witnesses 
for being here and appreciate your testimony and presentations 
today.
    I happen to be one of the seven House members who represent 
the Tampa Bay area. Mr. Dalton, I want to say thank you to you 
and the Corps for, over the past few months, helping to secure 
new start funding for the Port of Tampa to embark on the Big 
Bend Project. I hope that when this is completed expeditiously, 
that it will be an example of a good example of a partnership.
    The Tampa Bay Port Authority has expanded tremendously, and 
in addition to cruise ports, cargo ports are doing containers, 
we have expanded with complementary ancillary rail for 
distribution of cargo. It is coming along. However, this has 
been going on for more than 15 years.
    I guess my first question to you, Mr. Dalton, is what can 
we do to advance the President's goal of finding ways to get 
project to construction faster? I know this is kind of 
piggybacking on Mr. Gianforte's question earlier.
    Mr. Dalton. There may be a number of things that we could 
do to move those projects along faster. The first is that we 
have to make sure that we have a completed design for those. So 
we are looking at the incentives. The Administration has 
introduced incentives and grants as perhaps ways that we could 
look to move projects along faster. We don't know what the 
fruits of that will be yet because it is something not yet 
tested with us, but we are looking at different means of 
financing projects because we think that is part of the key to 
move projects along faster than they have been.
    Mr. Ross. And, Mr. Strawbridge, how would you feel about 
that? Do you have any suggestions in addition to that to move 
these construction projects faster?
    Mr. Strawbridge. Well, one of the challenges that we face, 
Congressman, is when we advocate for us to execute on the work, 
the Corps says that is fine, but then we are responsible for 
the entire cost of the project. We don't think that is fair. 
What we are trying to do is help out the Corps in our district 
in the post-Harvey recovery environment. The Corps district, 
appropriately so, is focused on flood risk mitigation and flood 
control projects. Those are life-saving projects. We are saying 
let us focus on those projects that create more livelihoods, 
like the deepening and widening of the Corpus Christi Ship 
Channel, without us having to bear the entire cost of the 
project.
    Mr. Ross. There appears to be a lot of time spent in the 
planning and development stage, too much time. I guess my 
question is, is there a duplication of engineering and 
studying, and can that be consolidated in an effort to try to 
save time?
    Mr. Strawbridge. I believe it can be, sir, absolutely, I 
think through a separation or a division, a divide and conquer 
approach. Let the Corps be a regulatory and oversight 
permitting agency. Let us do the design, let us do the ----
    Mr. Ross. I mean, there are protocols. There are standards 
in the industry, and I think what is important is that 
technology has advanced to such a degree that we ought to be 
able to do these preliminary development and engineering 
studies a lot quicker and be accepted from one agency to the 
next.
    Would anybody else like to comment on that?
    Ms. Mickelsen. We found that the Army Corps in the 
districts on the Upper Mississippi have been doing that now 
with ecosystem restoration projects, thinking the way you are 
doing, can we move parts of the design forward while we are on 
this planning part that we have kind of figured out, and it is 
going really well when they are doing that. They don't always 
do that, but if they could apply that metric to other projects, 
I am sure that would go well.
    Mr. Ross. I appreciate that.
    Back to you, Mr. Dalton. I also represent an area, or have 
in the past, of the phosphate industry. The last vestige of 
this industry is just right south of my district. Quite 
frankly, we are in a competing global market with this, and 
phosphate feeds America. I mean, it feeds the world with 
fertilizer. There is an issue about a CWA 404 permit, that it 
takes six to eight years for the Corps to issue it, but yet the 
state can do the same thing in three to four years. Is there 
any explanation for that, and is that something that could be 
resolved or expedited by consolidation of efforts in studies?
    Mr. Dalton. Congressman, I am not familiar with that 
particular issue and that permit. I will certainly go back and 
try to find out ----
    Mr. Ross. Thank you.
    Mr. Dalton.--what is taking so long.
    One thing I would say here is that we would like to 
implement things like, for instance, design build, and you can 
add studies into those, as Ms. Mickelsen said. But the way we 
currently authorize projects, they are authorized in different 
phases. When we were down in New Orleans with the post-Katrina 
work, we issued the largest design build contract that Civil 
Works had ever issued. That was because we had funding up 
front, which means that you could actually start that project 
while you are actually designing it, or maybe in some cases 
finishing the study associated with it. You can't do that the 
way we are currently authorized for our projects.
    Mr. Ross. So it sounds like we can consolidate the design 
and engineering, but it all comes down to a function of funding 
to get it started.
    Mr. Dalton. In our case, it is also the authorizations.
    Mr. Ross. Right.
    Mr. Chairman, I yield back. Thank you.
    Mr. Farenthold. Thank you very much.
    I notice the gentleman from Michigan, Mr. Mitchell, has 
arrived. He is a full committee member but not a subcommittee 
member. Therefore, I would like to ask unanimous consent that 
he be allowed to participate in this hearing.
    Without objection, so ordered.
    I will now recognize the other gentleman from Florida, Mr. 
DeSantis, for 5 minutes.
    Mr. DeSantis. Thank you, Mr. Chairman.
    In Florida we have a really significant problem with Lake 
Okeechobee. There is a dike surrounding the lake that is at 
risk for failing, which obviously impacts the people who are 
close to there; but then also the fact that the Army Corps has 
sent billions of gallons of polluted water to both coasts of 
Florida. That has degraded the local environment and harmed the 
local economies. In fact, in 2016, there was a major algae 
bloom. It shut down some of the beaches for a time, really 
knee-capped the fishing industry and tourism.
    So we really want to solve that problem in Florida, and we 
have something now called the EAA Reservoir Project, and this 
is something that the officials in Florida have been working 
with the Army Corps on now for several years. In July of 2016, 
we had the Assistant Secretary of the Army say that the Corps 
was ready to start the project as soon as the non-Federal local 
sponsor was ready. So in the following legislative session, the 
Florida legislature passed legislation directing the local 
sponsor to expedite the project, setting aside $800 million for 
the state share of the cost, signed into law May of 2017, and 
the Corps obviously was aware of the state legislation because 
it was invited to participate in a committee hearing. It 
actually provided state legislators with information during 
that hearing.
    So non-Federal local sponsor notified the Corps of its 
desire to move forward with the project on June 26, 2017. At 
the Corps' request, the non-Federal local sponsor utilized the 
203 process, which was authorized in WRDA from 2014, and it 
allows the non-Federal local sponsor to prepare a feasibility 
study on its own and obtain technical assistance from the 
Corps. They pay for it.
    The state of Florida tried to do that, but for months the 
Corps dragged its feet and would not identify the areas for 
which it would provide technical assistance. It was only within 
the past few weeks that the Corps has finally agreed to a scope 
of work, but the large majority of the project planning was 
done without the requested assistance from the Corps.
    What I would like to do is I have a letter from the South 
Florida Water Management District Executive Director, Ernie 
Marks. It has the timeline of the correspondence with the 
Corps. Without objection, I would like to enter this into the 
record.
    Mr. Farenthold. Without objection, so ordered.
    Mr. DeSantis. So my question for you, Mr. Dalton, is given 
the significance of this project to Florida, are you satisfied 
that the Corps has acted with the deliberate speed necessary so 
that we can forestall another season with these harmful 
discharges as soon as possible?
    Mr. Dalton. So, Mr. Congressman, Section 203 was not 
something, as I mentioned before, that we had utilized a lot in 
the past. So the guidance that we created was almost done at 
the same time the South Florida Water Management District 
submitted the request to do the 203. Our initial response back, 
I think, had more things identified that we could not do as 
opposed to what we could do. We have since looked at that and 
tried to turn that around. So it has been a learning process 
for us. I think we are on a good path now to implement Section 
203, and we certainly are sensitive to the releases from the 
Herbert Hoover dike going out to the estuaries as not something 
certainly desired by anyone.
    Mr. DeSantis. So you think that the Corps now is in a 
position with 203 that you will be able to move more quickly in 
dealing with these projects?
    Mr. Dalton. I absolutely do. Yes, sir.
    Mr. DeSantis. Okay. Now, is the Corps prepared to act 
quickly upon receipt of the report on the EAA Reservoir from 
the South Florida Water Management District and get it to 
Congress within the 2018 WRDA cycle? We think it is very 
important that that be teed up for WRDA this year. If it is, I 
think that will be very beneficial to what we are fighting for 
down in Florida.
    Mr. Dalton. With that, I would have to look at the schedule 
and get back with you. The reason I say that is because the 
project goes from the non-Federal over to our ASA to make a 
decision before it gets to Congress. I haven't looked at that 
schedule yet to say whether it meets the WRDA 2018 schedule, 
but I certainly will do that.
    Mr. DeSantis. Well, I would request that you do that. And I 
would also request that if it doesn't, that we take some steps 
to get that done, because if we can get it in 2018 WRDA, I 
think we are going to be in a much better position to be able 
to solve this problem, which I know you guys are interested in 
solving because you are sick of hearing us talk about it, and I 
know people down in Florida want to solve it. So if you can 
look at it, figure out where we are, and if we are not where we 
need to be, let's get it to where we need to be so we can get 
it in this cycle. I think that would be very, very important 
for Florida, and I thank you for your consideration.
    I yield back.
    Mr. Farenthold. Thank you very much.
    I will now recognize the gentleman from Michigan for 5 
minutes.
    Mr. Mitchell. Thank you, Mr. Chair.
    I want to thank the committee members for their acceptance 
of my participation here today.
    The reason I came for this hearing is a significant issue 
in Michigan in my area and in this country is the Soo Locks. 
The reality is that the extent of the cargo that goes through 
the Soo Locks, the economic impact on this country is huge. At 
this point in time, 90 percent of the tonnage that transits the 
Soo Lock goes to the Poe Lock. I would have to look here. The 
Poe Lock was opened in 1969.
    In 1986, Congress authorized the building of a new, an 
additional 1,200-foot lock for redundancy and some resiliency 
to avoid the issues that are created should the Poe Lock have 
an issue. Thus far, surprisingly, or I guess disappointingly, 
nothing has happened on that.
    Mr. Weakley, you expressed some concerns in your testimony 
about the economic analysis being done by the Army Corps. Could 
you highlight for me just the key components of that briefly so 
we can continue on with questions, sir?
    Mr. Weakley. Yes, sir. Briefly, I will break it down into 
two areas. One is what I call comparison of the construction 
costs, and the other is the lock inflation.
    So what the Corps is doing in their analysis is they are 
comparing the full lock costs to one-third of the rail 
construction costs. What they should do is compare the full 
cost of constructing a lock with the full cost of constructing 
a rail alternative.
    Mr. Mitchell. Well, my understanding is a rail alternative 
is somewhere between $6 and $10 billion, depending on how much 
we have to project in terms of being carried on a rail line, 
because there isn't adequate rail coverage in that area. Is 
that correct?
    Mr. Weakley. Yes, sir. We have heard an estimate range from 
$4 to $10 billion from the Corps' economist, but the Corps has 
a contractor that estimated the cost at $6.5 billion for the 
rail alternative.
    Mr. Mitchell. Let me stop you there real quick.
    Mr. Dalton, could you explain this to me? I mean, my 
background is economics and public policy. Why is it that the 
Army Corps would say we are only going to consider a third of 
what the acknowledged numbers are as we compare the economic 
viability of building another lock? Could you explain that to 
me?
    Mr. Dalton. Probably, sir, not to your satisfaction, 
because it is one of those areas, quite honestly, talking with 
the economist, that I have a similar question to try and 
understand. We recognize to replace the lock it is somewhere 
between $4 and $10 billion. And the $2 billion that is 
currently being used, my understanding of that is looking to 
see if, in fact, you had to use transportation to move, in the 
absence of the lock, that part of this cost would be accepted 
by or handled by what you have in reserve at storage yards, 
spare capacity I would say.
    Mr. Mitchell. Let me stop you, Mr. Dalton. Have you ever 
been to the Soo Locks?
    Mr. Dalton. I have. Yes, sir.
    Mr. Mitchell. Have you looked to see if any storage 
capacity is there? I am from Michigan, as you know, and I am 
trying to figure out how they think we are going to stack up-- 
let me stop for a second.
    Mr. Weakley, between the two of you, have you looked at the 
economic impact should the Poe Lock go down for any period of 
time? What is the economic impact?
    Mr. Weakley. Eleven million Americans will be unemployed, 
and those layoffs will begin within two weeks of a long-term 
outage.
    Mr. Mitchell. Mr. Dalton, how have you considered that in 
your economic analysis, or the Army Corps? How is that computed 
into the economic analysis?
    Mr. Dalton. I will have to take a look to give you a more 
complete answer on the economics associated with it and how we 
are doing the economic analysis. What I would say is that the 
questions that Mr. Weakley are bringing up is something that we 
are also questioning within the Corps of Engineers, taking a 
look at that economics. A validation report is actually being 
done.
    I think you mentioned that you just found out a couple of 
weeks ago or so that, in his words, there is a fatal flaw. So 
we will take a look at that. I will take a look at that.
    Mr. Mitchell. I suggest that considering a third of the 
cost of putting in the rail infrastructure, never mind the 
delay in doing that because it does not currently exist--if you 
look at the DHS report, they indicate the Office of Cyber and 
Infrastructure Analysis in the case that there is not 
sufficient rail infrastructure at the Soo Locks to address the 
issue if the Poe Lock fails, if it shuts down for any period of 
time.
    As Mr. Weakley says, the reality is we will lose 11 million 
jobs within two weeks, or start losing them within two weeks of 
the Soo Locks coming down. So I am trying to figure out how--I 
would like to ask, if you would, sir, that you gather some of 
your economists who think that they have done a good job here. 
I would ask my staff to get with you. I want them to wander 
over. Please tell them I am an economist. I would love to talk 
to them about what the numbers are, because I think they fall 
far short of addressing the economic impact of Soo Locks, and 
the delay is now unacceptable to get the lock, an additional 
1,200-foot lock built. We have now reached a point where we can 
no longer tolerate this kind of risk.
    Mr. Dalton. Yes, sir.
    Mr. Mitchell. Thank you, sir.
    Thank you, Mr. Chair.
    Mr. Farenthold. Thank you.
    I have a few more questions, so we will do a second round 
of questions, but it doesn't look like it is going to take too 
long.
    I want to start off and talk a little bit about the Harbor 
Maintenance Trust Fund. Years ago, Congress set up a user fee 
for funding the maintenance of our harbors, rivers, and the 
like. Unfortunately, that money does not all go to harbor 
maintenance. In fact, our appropriations committee has taken 
quite a bit of that back and is spending it on other things.
    Mr. Weakley, I have heard from folks within your industry 
that they would even be willing to see an increase in that user 
fee if the money were actually devoted for what they were told 
it was going to be devoted for in the beginning. Is that 
accurate within the industry?
    Mr. Weakley. Yes, sir, not just from the Great Lakes 
perspective but nationwide. We led a coalition called the RAMP 
Coalition, Restore America's Maritime Progress, to free up some 
of that trust fund, to set our trust fund free. Since 1986, 
that trust fund has accumulated over $9 billion in excess 
collections. It spends about half of what it takes in, although 
I will say within the past couple of years, thanks to 
congressional intervention, more of that is being spent, 
although we are still significantly less than the revenues it 
takes in on an annual basis.
    Mr. Farenthold. Do any of the other members of the panel 
have any suggestions for ways the Harbor Maintenance Trust Fund 
can be improved or better used?
    Mr. Strawbridge. Certainly, Congressman, a mandate that it 
be used for what it is collected for would be a good start. I 
know the American Association of Port Authorities, of which the 
Port of Corpus Christi Authority is a member, has taken a 
formal position in that regard, and we support the AAPA's 
position on the HMT.
    Mr. Farenthold. So, when I came into Congress, one of the 
things we did was ban earmarks. In the past, a lot of these big 
projects were actually funded with congressional earmarks. What 
sort of change have you seen, Mr. Strawbridge-- and I will ask 
Ms. Mickelsen the same question-- since the earmark ban? Has it 
been good? Bad? Indifferent?
    Mr. Strawbridge. Certainly, Mr. Chairman, infrastructure in 
this country, for the most part, prior to the abolition of 
earmarks in 2010, much of the infrastructure in this country 
was built on earmarks. And in the absence of earmarks, I think 
the unintended consequence is that infrastructure projects take 
much longer and have much less funding associated with them. We 
certainly see that at the Port of Corpus Christi. Twenty-eight 
years to get us to where we are today, and we still have not 
turned ----
    Mr. Farenthold. Is it a dollars and cents or timing issue, 
or both? I notice you have the Federal share on the Port of 
Corpus Christi is over $100 million. You have about 10 percent 
of it this year, and basically you are just hoping you continue 
to get that stream.
    Mr. Strawbridge. Well, it is actually over $200 million. 
The Federal portion today is $225 million. Our portion is $102 
million. We have worked hard to raise our money. We have our 
money ready to go, and it has only been in the last month that 
we were included in the President's budget. That still is not 
an approved budget, so we don't know what the actual 
appropriation will be.
    But if it goes in that same drips and drabs, this project 
will take over another decade to execute on. That would be 
nearly 40 years from the time Congress mandated we first study 
this project to actual execution.
    Mr. Farenthold. I am not a dredging expert, but I would 
imagine to dredge the--how long is the ship channel?
    Mr. Strawbridge. We have 29 miles of ship channel that are 
----
    Mr. Farenthold. I imagine it doesn't take 10 years to 
dredge that. So you have cost associated with getting the 
dredge out there, dredging a few miles of it, and see you next 
year.
    Mr. Strawbridge. That is exactly right. In the absence of 
those targeted funds, the Corps will only contract for what has 
been appropriated. We believe that this contract, unconstrained 
by funding, we could execute on the entire project in four 
years or less.
    Mr. Farenthold. Do you think it would be cheaper?
    Mr. Strawbridge. Certainly.
    Mr. Farenthold. Ms. Mickelsen, do you have anything to 
weigh in on the topic?
    Ms. Mickelsen. Yes, I do. I agree completely that it would 
be less expensive. I think the ban on earmarks has had the 
opposite effect on what we wanted. Maybe it is taking a re-look 
at earmarks. But it has prevented us from doing really 
important work. For example, the navigation ecosystem 
sustainability program, we have it authorized, we have it 
ready, but it depends on a congressional earmark. And instead 
of having a public forum on what our nation's priorities for 
funding are, we are depending on biases within the 
administration, within OMB or the Corps, and you have to try to 
inform all those levels, whether it is the districts, the 
division headquarters and OMB, and then you are relying on 
these cost/benefit analyses that are not reflective of the 
actual infrastructure needs.
    So it is a big problem, and it is affecting the Corps' 
budget. The Corps is set up as a line item. Any line item 
budget, whether it is going to a district or whether it is a 
completely regional program with national benefits.
    Mr. Farenthold. Great.
    Ms. Plaskett, do you have some more questions?
    Ms. Plaskett. Sure.
    One of the things I wanted to go back to, Mr. Dalton, when 
we talked about the responses and some of the projects that you 
are working on, can you talk with me a little bit about the 
hurricane season that is going to be coming up on us? It is 
less than three months away. Almost all climate scientists 
agree that this change is happening. I have seen reports that 
say that this hurricane season is going to be as severe or more 
severe than last year's.
    Has the Army Corps had meetings with other Federal agencies 
to coordinate plans and make other preparations for the 
possibility of what the season may look like?
    Mr. Dalton. Yes, Congresswoman. What typically happens with 
us as hurricane season approaches is we have tabletop exercises 
with other Federal agencies. FEMA is often the lead for this 
collaboration. We talk about what we think, the possibilities 
of what could happen. We look at resources. One of the things 
that the Corps typically does is ensure that we include all of 
our districts or divisions and not just those that might be in 
affected areas, probably for the obvious reasons, because those 
in affected areas are not ones that we can count on immediately 
following an event.
    Ms. Plaskett. But when you have the tabletops to go through 
how you respond, do you include those people from those areas?
    Mr. Dalton. We include local, like flood control ----
    Ms. Plaskett. I don't know, because I know one of your 
problems with the blue roof was that you didn't know how to 
find addresses in the Virgin Islands, and that is why you 
couldn't get to them. So are people involved who can present to 
you the issues that may be unique to an area so that you can 
address those on the tabletop?
    Mr. Dalton. We do include some members of the community, 
mostly from the emergency offices, EOCs. But I will certainly 
take a look to see if we should have done more than what we 
did, obviously, from what you are saying.
    Ms. Plaskett. Okay. Thank you.
    And, Mr. Weakley, in your testimony, I wanted to know how 
you experienced communication issues working with the Army 
Corps division and headquarters.
    Mr. Weakley. Well, I will tell you that at the district 
level it has been outstanding. At the division level it hasn't 
been as good as the districts. To Mr. Dalton's credit, we met 
with him personally. In fact, he set up the dispute resolution 
meeting, and that is where we discovered the two fatal flaws.
    What I have learned through my experience is that it is 
kind of incumbent on us to knock on the door, and to the Corps' 
credit the door is usually opened and answered.
    Ms. Plaskett. And is that door open at the local level, or 
is it at the regional or headquarters? Where do you find that 
it is easier to get that done?
    Mr. Weakley. To be frank, it is open at all levels, but the 
closer we are to Sault St. Marie, Michigan, the better they 
understand it, the more supportive they are. At the division 
level there is a significant drop-off. At the headquarters 
level there is a marginal drop-off.
    Ms. Plaskett. Sure.
    Mr. Strawbridge, what has been your experience?
    Mr. Strawbridge. At the district level I think our 
relationship is good. We also have Corps personnel in Corpus 
Christi itself.
    One of the challenges we see, though, is the billet for the 
commander at the district, it is a three-year billet, and 
usually the commanders that are put in that, it is their last 
billet before retirement. We see that that three years is 
probably not enough, not a long enough billet to get the things 
done that we need done. We need more leadership, consistent 
leadership at the district level.
    We have seen a marked improvement in our relationship at 
headquarters, and frankly we have had to go to headquarters to 
get guidance because we just don't get the responsiveness that 
we need at the local or regional level.
    Ms. Plaskett. Thank you.
    Ms. Mickelsen, you were shaking your head yes. So you would 
agree as well?
    Ms. Mickelsen. I would agree as well that we often have to 
go to headquarters to get resolution on issues, and I think 
most of that is because, from our perspective, that is where 
the decision-making happens, and that influences what districts 
are able to do.
    We have also seen that rivers are complicated and these 
issues are complicated, and once we get district commanders and 
division commanders that are two to three years in that get it 
and understand the need for it ----
    Ms. Plaskett. When they finally get it, then they have to 
go.
    Ms. Mickelsen.--then they have to go.
    Ms. Plaskett. And then the indemnification, I know you had 
concerns with that.
    Ms. Mickelsen. Yes, substantial concerns with that. Our 
states will not sign on to agreements if that indemnification 
clause is in there. I think it is an additive to also being in 
perpetuity, which is not in law; that was a Corps decision.
    Ms. Plaskett. Thank you.
    Mr. Farenthold. Thank you. And you were talking about 
disaster relief, Ms. Plaskett. I do have a couple more 
questions along those lines. I think you might find these 
useful for your situation in the USVI as well.
    Mr. Dalton, in your opinion, should fully authorized Corps 
projects located in disaster-prone areas be prioritized and 
fully funded to have the work begin immediately?
    Mr. Dalton. I think any time we identify a risk to the 
public, and in most cases those projects you are referring to 
would be risk to the public, I think, yes, they should be fully 
funded and prioritized to reduce public risk.
    Mr. Farenthold. And do you think the $96 billion backlog of 
Corps projects, not including the disaster recovery projects 
like Harvey, Irma and Maria, affect the Corps' ability to 
assist Texas, Florida, the Virgin Islands and Puerto Rico in 
their recovery efforts? I mean, do you all just have too much 
on your plate?
    Mr. Dalton. I don't know each one of those $96 billion 
projects, but I would say most of those projects are projects 
that affect, or at least at one time, when they were 
authorized, affected the public safety. We are looking at those 
projects to determine which ones of those we should actually 
probably de-authorize, if any, because of the age of them, and 
maybe circumstances have changed. But I would say the majority 
of those projects are life safety related.
    Mr. Farenthold. All right. And along those same lines, 
during Hurricane Harvey there was a great deal of flooding in 
Houston, and there has been quite a bit of publicity associated 
with the releases of water from the Addicks and Barker 
reservoirs that the U.S. Army Corps of Engineers is involved 
with. We have talked about it a lot in the media, but could you 
give us a brief synopsis from the Corps perspective of what 
happened there?
    Mr. Dalton. Addicks and Barker are a couple of dams that 
were put in place to reduce the risk to Houston, downstream 
Houston. So when those projects were first, I believe, 
constructed, there was not the development upstream of the 
projects that exists today. So we have identified or had 
identified real estate that was in the flood pool of Addicks 
and Barker, but over time the development occurred. I believe 
that people were not notified properly that they were in an 
area that would be inundated depending on what the flood risk 
situation was, or the flooding was within the Addicks and 
Barker reservoirs.
    So in many cases, I don't think people knew that they were 
living ----
    Mr. Farenthold. Do you know whose responsibility it was to 
notify them?
    Mr. Dalton. I think it was the real estate agent's 
responsibility to notify them, that they sold the homes and 
they were at one time identified as being in a flood pool.
    Mr. Farenthold. When you all decided you were going to have 
to release the water, how did you all communicate that to the 
folks beforehand? How long, and can you talk about that 
process? This hearing is about communications. From what I hear 
from my friends in Houston, my colleagues who represent 
Houston, they were not given a lot of notice about that and it 
really caused some problems.
    Mr. Dalton. So, Mr. Chairman, as you know, that whole issue 
right now is in litigation. So ----
    Mr. Farenthold. You have to be careful what you say, I 
guess.
    Mr. Dalton. Absolutely. But from what I understand, and we 
have had conversations with our folks locally, is that there 
had been communications with the local emergency management 
officials, not necessarily directly with the public, but that 
is who we normally communicate with.
    Mr. Farenthold. I have about a minute left, Mr. Dalton. 
What would you like the public specifically in Houston to 
understand about the decision the Corps made with respect to 
those water releases and the choices the Corps made about 
communicating with them?
    Mr. Dalton. Right now, the Corps was in a place to where in 
order to operate those projects to do what they were intended 
to do, which was to reduce flood risk to Houston, we actually 
held water within the operations requirements of those dams, 
and you get to a point where you start having overflow going 
around through the spillway. If we didn't release water to 
Houston or contained it, the water would be released anyway. So 
at that point, those projects, the capacity of those projects 
was probably just simply exceeded.
    Mr. Farenthold. All right. Thank you very much.
    Did you have anything else, Ms. Plaskett?
    [No response.]
    Mr. Farenthold. I would like to thank our witnesses for 
being here. I think we had a very productive conversation. You 
have given us some thoughts on ways we can reform the process.
    This is the Oversight and Reform Committee. Several of us 
on this committee, or subcommittee, also serve on the 
Transportation and Infrastructure Committee, which is also 
involved in this project, and we will make sure the appropriate 
folks on that committee are able to review the testimony and 
the transcript of today, and hopefully we will be able to make 
a difference from this hearing.
    Again, thank you all for being here.
    The hearing record will remain open for two weeks for any 
members to submit written opening statements or questions for 
the record. I would appreciate you all responding to any of the 
questions we forward your way.
    If there is no further business, the subcommittee stands 
adjourned.
    [Whereupon, at 11:34 a.m., the subcommittee was adjourned.]


                                APPENDIX

                              ----------                              


               Material Submitted for the Hearing Record

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                                 [all]
</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
